• i

%

No.

■5859
IN THE
K

SUPREME COURT OF THE UNITEO*SWE%
>

Shikeb Saddozai rln pro se _ PETITIONER
(Your Name)
VS.

Xavier Becerra;WiXliam J. 9uUivm

reSPONDENT(S)

filed
SEP 2 3 2021
SUPREKgyAI^'-.gRK
u.s.

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Shikeb Saddozai
(Your Name)
31625 Highway 101,P.O.BOX 1050,
(Address)

Soledad,California,[93960], (SVSP)
(City, State, Zip Code)

N/A
(Phone Number)

QUESTION(S) PRESENTED

1. Whether Petitioner seeking a COA demonstrated a substantial
showing of the denial of a Constitutional right and that
jurist of reason would find it debatable whether the district
court was correct in its procedural ruling under test
Slack v. McDaniel,529 U.S. 473,483 (2000).
2. Whether the district court properly dismissed all seven
habeas claims on the basis they were barred by the
AEDPA statute of limitations.
3. Whether district court and Court of Appeals 9th Cir.
correctly detirmined that appellant failed demonstrating
a prima facie case.
4. Whether the Courts correctly detirmined that appellant had
failed to make a sufficient showing of ineffective assistance
of counsel as grounds for untimely appeal of conviction to «
merit further proceedings on that issue in the court.
5. Whether district court correctly detirmined that appellant
had failed to make a sufficient showing of Brady material
showing "actual innopence" to merit further proceedings
on that issue in the district court and U.S. Court of Appeals
9th Cir.
6. Whether the Court correctly detirmined that petitioner
was in custody under conviction or sentence under attack
at the time petition for writ of habeas corpus was filed.
7. Whether the District Court and U.S. Court of Appeals for the
9th Circuit standard of review was deficient with relevant
decisions of this court and erred denying petitioner's
properly stated rule of law.

i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

William J.Sullivan
M.B'Atchley

RELATED CASES

ii

V

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

A*5,6

REASONS FOR GRANTING THE WRIT
10,11,12,13,14,15,16,17
CONCLUSION.........................................

.7,8,9
.18

INDEX TO APPENDICES

APPENDIX A U.S.Court of Appeals for the Ninth Circuit Judgment
APPENDIX B United States District Court Northern District Court Judgment
APPENDIX C Supreme Court of California judgment
APPENDIX D

Court of Appeal state of California First Appellate dist.
division Five judgment

APPENDIX E

Superior Court of State of California County of San Mateo

APPENDIX F

iii

TABLE OF AUTHORITIES CITED

CASES
PAGE NUMBER
Barefoot v. Estelle 463 U.S. 880(1983)
7
13,15,16,
Brady v. Maryland,373 U.S.83(1963)....
Board of Prison Terms v. Superior Ct.(2005)130 CA4th 1212,1241..17,
12
Franklin v. Hightower,215 F,3d 1196.1199(11th Cir.2002)
Jones v. Wood,114 F.3d 1002,1009-10(9th Cir.1997)........
15,
Jefferson v. Welbom,222 F.3d 286,289(7th Cir.2000)....
.12
Jennings v. Woodford,290 F.3d 1006,1010(9th Cir.2002)..
8,
Lambright v. Steward,220 F.3d 102,1025(9th Cir.2000)...
8,9,10,11,12,14
7,8
Miller-El v. Cockrell,537 U.S.322,123 S.Ct 1029(2003)..
McQuiggin v. Perkins(2013)569 U.S.383,386,133 S.Ct 1924
16
Petrocelli v. Angelone.248 F.3d 877(9th Cir.2001)......
11,12,14
People v. DuvalU1995) 9 C4th 464,474........ .................
16
U.S. v. Agurs 427 U.S.97(1967).......................................
15
Roe v. Flores-Ortega.528 U.S. 470 145 X.Ed. 2d 985(2000)
17.........................
Slack v. McDaniel 529 U.S.473,483(2000)
6,7.8,9,11,12.13,14,15
Schlup v. Delo 513 U.S.298(1995)..........
15,
Valerio v. Crawford,306 F3d 742(9th Cir.2002)
12,14,
• • ♦ ♦ •

STATUTES AND RULES
Habeas Rule 4..............
42 U.S.C. § 12101......
29 U.S.C. § 794...........
FRCP Rule 12(b)(6)......
Circuit Rule 22-l(d)...
2253 (c)......................

16
13
13
10
6
7

OTHER
In re Sims(2018)27 CA5th 195,203...................
Sixth Amendment to the U.S. Constitution......
Fifth Amendment to the U.S. Constitution.....
Eighth Amendment to the U.S. constitution.....
Fourteenth Amendment to the U.S. Constitution

16
13
13
13
13

iiii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

Ixl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
-------

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
DC] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_5__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Court of Appeals First Appellate Dist.Div.5 court
appears at Appendix J5.
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
pC] is unpublished.
1.

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 22,2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[Xl For cases from state courts:
The date on which the highest state court decided my case was October 10,2018
A copy of that decision appears at Appendix C
[/] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
. appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
_ (date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the U.S.Constitution........................................

13

Eighth Amendment to the U.S.Constitution......................................

13

Fourteenth Amendment to the U.S.Constitution

13

Fourth Amendment under due process to the U.S.Constitution • • 13
Fifth Amendment under due

process to the U.S.Constitution..13

3

STATEMENT OF THE CASE
0ft August 18,2015, Appellant Shikeb Saddozai,pleaded no
contest to felony sexual penetration in and for the County of San Mateo
Superior Court in PEOPLE OF THE STATE OF CALIFORNIA v. Shikeb Saddozai,
Case No.SC078812-A,(NF415482A), and sentenced to 32 months in
State Prison with 4 years supervised parole on ankle monitor
and made to register under Penal Code § 290,for his life time
with genetic marker

and $10,000.00 restitution.

On October 9,2015 judgment was pronounced by the court
and appellant did not challenge or appeal his plea due to
relying on promises by trial attorney and district attorney,
appellant would receive a suspended sentence and probation by
agreeing to forgo trial by iury and consent to the entry of
the plea of guilty under inducement of alleged promises.
Appellant did not learn that these representations were
untrue untill after judgment and sentence had been imposed.
On or about November 3.2015,days following pronouncement of
judgment appellant was removed from San Mateo County Jail and
sent to San Quentin State Prison,where appellant immediately
wrote to trial counsel and Deputy District Attorney,reminding
them of the promise of probation and suspended sentence and
appellant did not receive a response.
Appellant did not know trial attorney had failed to
commit to promise and even abandoned appellant's request to
file appeal without notice or instruct appellant as to the
proper procedures or see that appellant has counsel to file
appeal on breach. The date of which appellant discovered the
4

factual predicate of trial attorney's ineffectiveness of
assistance was not the date on which appellant became aware
of the facts that appellant was pre-judiced by trial attorney's
deficient performance and fraud, nor did the court or trial
attorney order a probation report for felony conviction and
imposition of sentence was made without informative report
needed to assist in disposition and would bring out facts
proving appellant relied on trial attorney promises on
probation and suspended sentence.
Appellant new facts presented in Certificate Of Appeal
to the U.S. Court of Appeals for the Ninth Circuit were not
known and kept from appellant and appellant could not exercise
due diligence,have discovered them at the time substantially
earlier than the time of appellant's motion for writ of
habeas corpus In re Shikeb Saddozai,Case No.5:18-cv-07337-EJD,
and at all times appellant maintains his "Actual Innocence".
Pursuant to 28 USC §2253, Rule 22 FRAP,and Ninth Circuit
Rule 22-I(d),Appellant submitted motion to Ninth Circuit for
issuance of a Certificate of Appealability (COA),following
denial of a COA by the district court. On March 5.2020,
judgment was entered,summarily denying appellant's petition
for writ of habeas corpus,and dismissing the action with
prejudice.(Dkt.23). The judgment incorporated a contemporan­
eous order by the district court iudge that the petition for
writ of habeas corpus be "denied on the sole basis that all
claims raised are barred by the statute of limitations".

5

(Dkt.23,24,30). On April 13,2020,Appellant filed a timely
Notice of Appeal from judgment of dismissal.(Dkt.23).
On March 5,2020,the district court issued a memorandum
no certificate of appealability is warranted on this case
and

order denying the motion for COA on the basis that,

petitioner has not shown ’’that jurists of reason would find
it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of
reason would find,it debatable whether the district court was
correct in its procedural ruling, "under test Slack v.
McDaniel,529 U.S. 473,483(2000).(Dkt.23)
On January 4,2021,appellant filed a motion to extend
the 35-day time limit under Circuit Rule 22-l(d),within
which to file a motion for COA in the: court.(Dkt.11).
On July 22,2021, Appellant's request for a certificate
of appealability(Dkt.No«13) to the U.S.Court of Appeal for
the Ninth Circuit was denied, claiming appellant has not
shown that "jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a
Constitutional right and that jurists of reason would find
it debatable whether the district court was correct in its
procedural ruling.

6

REASONS FOR GRANTING THE PETITION
In the U.S. Supreme Court decision in Miller-El v,
Cockrell.537 U.S. 322,123 S.Ct.1029 (2003).this Court
clarified the standards for issuance of a COA.
Petitioner seeking a COA need only demonstrate

a

" substantial showing of the denial of a constitutional
right". Petitioner satisfies this standard by demonstrating
that jurists of reason could disagree with the district
courts resolution of his constutional claims or that
jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.Id,123 S.Ct. at
1034,citing Slack v, McDaniel,529 U.S.473.484,120 S.Ct.1595
(2000).
Reduced to its essentials,the test is met where the
petitioner makes a showingthat "the petition should have been
resolved in a different matter on that the issues presented
were 'adequate to deserve encouragement to proceed further1.
"Id,at 1039,citing Barefoot v. Estelle.463 U.S. 880(1983).
This means that the petitioner does not have to prove
that the district court was necessarily "wrong" -just that
its resolution of the constitutional claims is "debatable".
As it is stated in Slack.where a district court has
rejected the constitutional claims on the merits,the showing
required to satisfy § 2253(c) is straight forward: the
petitioner must demonstrate that reasonable jurist would

7

find -the district court's assessment of the constitutional
claims debatable or wrong. Applying the above standard for
granting a COA,this court has acknowledged that the standard
is relatively low". Jennings v. Woodford,290 F.3d 1006,1010
(9th Cir«2002)[citing Slack,at 483]. Moreover,because the
GOA ruling is not an adjudication of the merits of the appeal
it does not require a showing that the appeal will succeed.
Miller-El v. Cockrell1supra,537 U.S. at 337.
Finally doudts about the propriety of a COA must be
resolved in the petitioner's favor.Lambrjght v. Stewart,220
F,3d 102«1025(9th Cir.2000)[en banc].
Reasonable jurists could differ as to whether the District
court properly dismissed all seven habeas claims in the
petition on the basis that they were barred by the AEDPA
statute of limitations. In Slack v. McDaniel.supra 529 U.S.473,
the Supreme Court explained that detirmining whether a COA

s

should issue where a habeas corpus petition has been dismissed
on procedural grounds has

"two components, one directed at the

underlying constitutional claims and one directed at the district
court's procedural holding". Id*,at 485.
Both of these components are addressed,respectively,in
Parts

A

and

B,as follows:

A. Addressing for convenience,the second component first
the appropriate inquiry is "whether jurists of reason could
conclude that the district court's dismissal on procedural

8

grounds was debatable or incorrect”. Id.,at 485.
In the instant case,the district court considered
appellant's COA unwarranted, which addressed the component of
the Slack test which is directed at thedistrict court's
procedural holding,and found that Petitioner had not
''satisfied” this test.
B. The district court denied a COA on the basis that the
appellant had not met the constitutional claims component.
As demonstrated below,however, the district court and Court
of Appeals for the Ninth Circuit used a fundamentally wrong
standard in detirmining whether the constitutional claims
component hat been satisfied in a case such as this one,where
the district court has dismissed the petition on procedural
grounds. In Such circumstances, the court must look soley to
whether, for each claim,the petitioner has "facially alleged
the denial of a constitutional right". See,e.g.,Lambright v.
Stewart,220 F.3d 1022,1026 (9th Cir.2000)Cemphasis added].
By failing to apply this required test, and instead
applying a test based on the court's cursory review of the
merits a test which directly contradicts tha~Lambright test,
and for which there is no authority whatsoever the district
court clearly erred in finding that each of the claims set
forth in the petition failed to satisfy the constitutional
claims component of Slack.

9

r-

The rules set out in Lambright for detirmining whether
habeas claims which were dismissed on procedural grounds have
satisfied Slack's constitutional claims component have been
consistently followed in this court.
In Petrocelli v. Angelone.248 F.3d 877(9th Cir.2001). a
case in which the district court had dismissed a habeas peti­
tion on procedural grounds, this court first found that "jurists
of reasons would find it debatable whether the district court
was correct in its procedural ruling". The court then proceeded
to the second part of the COA analysis under Slack, "namely
whether jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional
right". Petrocelli.supra.at 885,citing Slack.supra.at 1600-01.
At that point, the Petrocelli,court fully approved the
Lambright holding, and applied it to grant a COA as to every
claim in the petition that had alleged the violation of a
constitutional right:
Because the district court and U.S court of Appeals 9th Cir.
dismissed these claims on procedural grounds, petitioner has not
had an opportunity to support them on the merits through brief­
ing or argument or the introduction of evidence. In Lambright v.
Stewart.220 F,3d 1022(9th Cir.2000),we encountered precisely
this situation and we held that "we need not remand for full
briefing to detirraine whether a COA can issue'1. Id. at 1026.
Rather, "we will simply take a 'quick look' at the face
of the complaint to detirmine whether the petitioner has facially
11

takes a quick look at the face of the petition to detirmine
whether the petitioner has alleged the denial of a constit­
utional right.
Applying that rule in the instant case, it is apparent
that all claims in petition satisfy the constitutional claims
component of

Slack:

Ground I. alleges ineffectiveness of counsel to withdraw
plea and file timely notice of appeal upon petitioner's
demands, misrepresentation and fraud of counsel violated
appellant's Sixth Amendment to the U.S.constitution right to
effective representation of counsel.
Ground 11. alleges denial and obstruction of access to
the court's violated appellant's Sixth And Fourth, Fifth
Amendment to the U.S. constitution.
Ground III, alleges legal,physical and mental disability
of appellant that are grounds for relief under the Federal
disabilities Statutes(42 USC § 12101 et seq.; 29 USC §794;
Section 504 of the rehabilitation act.
Ground IV. alleges denial of discovery showing "actual
innocence" violated appellant's due process and in violation
of Brady v. MAryland,373 U.S.83:(1963).(Dkt.23,P.7)
Ground V. alleges appellant maintained actual constructive
custody under the conviction or sentence under attack at the
time petition for writ of habeas corpus was filed.(Dkt.23,P.3
P.9)
13

that each of the claims alleged in the Petition satisfies
Slack's

constitutional component test. Accordingly, and

with the district court having already detirmined that the
procedural component of Slack has been met, a COA must issue
on all claims contained in the petition.
Reasonably jurists could differ as to whether the
district court correctly detirmined that appellant had failed
to make a sufficient showing of Brady material showing
" Actual Innocence" to merit further proceedings on that
issue in the district court. Appellant is actually innocent of
committing the charged crime; hence, his procedural default
cannot be used to deny him the right to have his habeas claim
herd on the merits. Schlup v. Delo,513 U.S.298 (1995).
The district court erred in not ordering discovery where
Petitioner's allegations of ineffective assistance were
supported by the record. Discovery is warranted where specific
allegations before the court show reason to believe that the
petitioner may, if the facts are fully developed, be able to
demonstrate that he is • « « entitled to relief. See,United States
v. Agurs,427 U.S. 97(1976). While the specific allegations are
required, a petitioner need not show that he would prevail on
the merits of his claims before receiving discovery.
In jones v. Wood, 114 F.3d 1002,1009-10(9th Cir.1997),the
Court remanded case for evidentiary hearing on ineffective
assistance of counsel claim to allow petitioner to engage in

15

in discovery* In the instant case evidence would prove a
credible showing of "actual innocence" and show it is more
likely than notrthat no reasonable juror would have
convicted the petitioner in light of the new evidence*
McQuiggin v. Perkins,(2013) 569 U.S. 383,386,133 S.Ct 1924,
Reasonable jurists could differ as to whether the
district court correctly detirmined that appellant failed
demonstrating a prima facie case* The district court concluded
that appellant's petition for writ of habeas corpus stated a
prima facie case for relief and ordered the state to file an
answer, motion or other response and fix a time for the state's
response. See,Habeas Rule 4*
This is typically done by means of an order to show
cause (OSC). See, Cal.Rules of Ct. 4551(c); People v* Duvall
(1995) 9 C4th 464,474; In re Sims(2018) 27 CA5th 195,203.
the issuance of an (OSC) indicates the district courts
preliminary assessment that the petitioner would be entitled
to relief. Duvall, 9 C4th at 474, Discovery is not available
in a habeas proceeding untill an (OSC) has been issued. Disc­
overy is necessary toensure a full and fair hearing and
detirmination of the case regardless of the issuance of an
(OSC).See,Brady v* Maryland (1963) 373 U.S. 83, 83 S.Ct 1194.
The district court failed to provide appellant access to
materials in the possession of the prosecution to prove grounds
claimed-in-petition after the district court detirmined a

16

priraa facie case existed and accepted the facts stated in
petition as true.
In a case in which no party has requested discovery and
the court believes discovery is necessary to ensure a full
and fair hearing and a detirmination of a case, the court
has descretion to order discovery on its own motion.
See, Board of Prison Terms v. Superior Court(2005) 130
CA4th

1212,1241.

Furthermore the district court failed to recognize that
attorney's failure to file an appeal in spite of being
instructed to do so by appellant is per se ineffective
assistance; in addition, an attorney's failure to advise a
defendant about an appeal constitutes ineffective assistance,
"when there is reason to think either (l)that a rational
defendant would want to appeal or (2)that a particular
defendant reasonably demonstrated to counsel that he was
interested in appealing" as was in the instant case with
appellant. See,Roe v. Flores-Ortega,528 U.S.470,145 L.Ed.2d
985 (2000).
Plaintiff's claims are cognizable under the Fifth,Sixth,
Eighth,and Fourteenth Amendment to the U.S. Constitution for
relief satisfying elements that a right secured by the
Constitution or laws of the United States was violated and
courts did not address these issues and has departed from the
accepted and usual federal question in a way that conflicts with
relevant decisions of this court.
17

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
V

<OZcU

Date: September 22,2021

18

